                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: 110100048                                                                      Page 1 of 1



         The OIG initiated an investigation based on an allegation that an institution! inappropriately
         charged salary and fringe benefit expenses to an NSF award. 2

         The institution acknowledged it inaccurately categorized salary expenses and failed to show cost­
         sharing in its proposed budget. The institution provided documentation to justifY salary
         expenses, removed $1,802 in fringe benefit expenses from the award, and took corrective action
         to ensure future award expenses will be accurately categorized. Accordingly, this case is closed.




         2




NSF OIG Fonn 2 (11102)
